          United States Government
   National Labor Relations Board
            Office of Inspector General




SEMIANNUAL

REPORT
OCTOBER 1, 2013 – MARCH 31, 2014




                  NLRB Semiannual report   1
TABLE OF
contents
Executive Summary..........................................................................1

Agency Profile...................................................................................2

Office of Inspector General...........................................................4

Audit Program...................................................................................5

Investigations Program....................................................................8

Legislation, Regulations and Policy............................................. 10

Liaison Activities............................................................................ 12

Information Required by the Act................................................ 13

Audit Reports by Subject Matter................................................. 14

Appendix......................................................................................... 16
EXECUTIVE
SUMMARY

I
     hereby submit the Semiannual Report for the period October 1, 2013 –
     March 31, 2014. This report summarizes the major activities and
     accomplishments of the Office of Inspector General of the National
Labor Relations Board and its submission is in accordance with the Inspector
General Act of 1978, as amended. Section 5 of the Inspector General Act
requires that the Chairman transmit this report to the appropriate committees
or subcommittees of Congress within 30 days of its receipt.
In the audit program, the Office of Inspector General issued two audit
reports, conducted the annual review required by the Federal Information
Security Management Act, and completed the Improper Payment
Information Act report to Congress and the Office of Management and
Budget. As a result of our audit work, we found $159,276 in questioned costs.
In the investigations program, the Office of Inspector General processed 151
contacts, initiated 3 cases, closed 4 cases, and issued 4 investigative reports.
Our investigative efforts resulted in two separations in lieu of disciplinary
action, one reprimand, one counseling, and the recovery of $18,765. Two
matters were referred for prosecution.
I appreciate the support of all Agency employees in achieving the
accomplishments set forth in this report.




                                             David Berry
                                             Inspector General
                                             April 30, 2014




                                              NLRB Semiannual report          1
AGENCY
profile
    The National Labor Relations Board (NLRB or Agency) is an independent
    Federal agency established in 1935 to administer the National Labor
    Relations Act. The National Labor Relations Act is the principal labor
    relations law of the United States, and its provisions generally apply
    to private sector enterprises engaged in, or to activities affecting,
    interstate commerce. NLRB jurisdiction includes the U.S. Postal Service;
    however, other government entities, railroads, and airlines are not
    within NLRB’s jurisdiction.


The NLRB seeks to serve the public         Board primarily acts as a quasi-
interest by reducing interruptions         judicial body in deciding cases
in commerce caused by industrial           on formal records. The General
strife. It does this by providing          Counsel investigates and prosecutes
orderly processes for protecting           unfair labor practices before
and implementing the respective            administrative law judges, whose
rights of employees, employers,            decisions may be appealed to the
and unions in their relations with         Board, and, on behalf of the Board,
one another. The NLRB has two              conducts secret ballot elections to
principal functions: (1) to determine      determine whether employees wish
and implement, through secret ballot       to be represented by a union.
elections, the free democratic choice      The Board consists of the Chairman
by employees as to whether they            and four Members who are
wish to be represented by a union          appointed by the President with the
in dealing with their employers and,       advice and consent of the Senate.
if so, by which union; and (2) to          Board Members serve staggered
prevent and remedy unlawful acts,          terms of 5 years each. The General
called unfair labor practices, by          Counsel is also appointed by the
either employers or unions.                President with the advice and
NLRB authority is divided by law           consent of the Senate and serves
and delegation. The five-member            a term of 4 years.

2    NLRB Semiannual report
Seated left to right: Philip A. Miscimarra, Mark Gaston Pearce, Kent Y. Hirozawa, Standing: Nancy J. Schiffer
and Harry I. Johnson, III


During this reporting period, the                                 DC. In addition to the Headquarters
Board consisted of Chairman Mark                                  building, employees are located in
Gaston Pearce and Members Philip                                  54 offices throughout the country.
A. Miscimarra, Kent Y. Hirozawa,                                  Three satellite offices for the
Harry I. Johnson, III, and Nancy                                  administrative law judges are located
J. Schiffer. Richard Griffin was                                  in Atlanta, San Francisco, and New
confirmed by the Senate to a 4-year                               York City. NLRB maintains 51 field
term as General Counsel.                                          offices with 26 offices designated as
For Fiscal Year (FY) 2014, the                                    Regional Offices.
NLRB’s appropriation is                                           Additional information about
$274,224,000.                                                     the NLRB can be found at
NLRB Headquarters is located at                                   www.NLRB.gov.
1099 14th Street, NW, Washington,




                                                                         NLRB Semiannual report                 3
OFFICE OF
INSPECTOR GENERAL
    NLRB established the Office of Inspector General (OIG) pursuant to
    the 1988 amendments to the Inspector General Act of 1978 (IG Act).



Resources
During the reporting period, the
OIG received sufficient funds to
maintain its programs. In addition
to the Inspector General, the OIG
consists of a Counsel/Assistant
Inspector General for Investigations,
an Assistant Inspector General for
Audits, and three auditors. During
the reporting period, one auditor
position was vacant. This staffing
level is augmented by contract
auditors.




4   NLRB Semiannual report
AUDIT
Program
   The Inspector General is to provide policy direction for and is to conduct,
   supervise, and coordinate audits relating to program operations of the
   Agency. During the reporting period, the OIG issued two audit reports,
   conducted the annual review required by the Federal Information
   Security Management Act, and completed the Improper Payment
   Information Act report to Congress and the Office of Management and
   Budget (OMB). As a result of our audit work, we found $159,276.48
   in questioned costs.


Reports Issued                             award items were misappropriated
We issued audit report OIG-                by staff; there was a lack of
AMR-71-14-01, Division of                  segregation of duties; and Office of
Administration Pilot Employee              Personnel Management regulations
Recognition Program, on January            were not followed. The lack of
6, 2014. We initiated the audit after      internal controls resulted in gross
we received complaints from a              mismanagement of the awards
Division of Administration manager         process during the pilot program
alleging that the awards program           and $159,276.48 in questioned costs.
was not properly managed, in that          We also found that, in general,
awards were made without obtaining         awards were not evenly
the proper approval.                       distributed among the Division of
We found that the pilot Performance        Administration branches in that
Management System’s awards                 the employees in the Office of the
program lacked the internal controls       Director and the Budget and Human
to detect and prevent waste and            Resources Branches received, on
abuse. There are no records for the        average, more cash and time off
approval of the pilot Performance          awards than employees in the other
Management System; the policies            branches. When we analyzed the
and procedures were not fully              timing of the cash and time off
documented, approved, or followed;         special act awards, we determined

                                                NLRB Semiannual report           5
that the pilot’s awards program did    Financial Statements were fairly
not meet its objective to shift the    stated. No material weaknesses in
emphasis from annual performance       controls over financial reporting
ratings-based awards to what was       were identified, and no instances
described as a more fluid process in   involving noncompliance with laws
which achievements are recognized      and regulations were reported.
as they occur. In fact, 89 percent     The Management Letter issued as
of the special act awards occurred     part of the financial statement audit
within 3 months of the beginning       process contained no substantive
or the end of the performance          findings and no recommendations.
appraisal cycle.                       The Management Letter did provide
We made five recommendations to        information on the status of prior
correct issues that were identified    years’ recommendations.
during the audit and need to be        We completed the Federal
remedied.                              Information Security
We issued Audit Report                 Management Act of 2002 annual
OIG-F-18-14-01, Audit of the           review of information security
NLRB Fiscal Year 2013 Financial        programs. The OIG review was
Statements, on January 29,             accomplished as part of the audit
2014. The audit, performed by an       of the FY 2013 financial statements
independent public accounting firm,    and the completion of the OMB
found that the NLRB’s FY 2013          template. On December 2, 2013,

6   NLRB Semiannual report
the Chairman submitted reports        four of the five recommendations
from the Inspector General and the    on January 4, 2012. Management
Chief Information Officer to OMB.     has implemented four of the five
On March 27, 2014, we complied        recommendations made in the
with the provisions of the Improper   report.
Payments Information Act,             Internal Controls in the Office of
as amended by the Improper            Equal Employment Opportunity,
Payments Elimination and Recovery     OIG-AMR-67-12-01, was issued
Act, and reported to Congress         on January 9, 2012, and we reached
and OMB documenting our               agreement with management on
review of the Agency’s improper       March 9, 2012. Management has
payment reporting in the Agency’s     not completed action on the five
Performance and Accountability        recommendations.
Report.                               End-of-the-Year Spending,
The NLRB stated in its Performance    OIG-AMR-70-12-02, was issued on
and Accountability Report that it     September 17, 2012, and we reached
does not make program payments as     agreement with management on that
described in the Improper Payments    date. Management implemented one
Information Act and that it has no    of the two recommendations made
information to report with respect    in the report.
to erroneous program payments.        Audit of the NLRB Fiscal Year
Our report to Congress and OMB        2012 Financial Statements,
stated that we concurred with that    OIG-F-17-13-01, was issued on
determination.                        December 6, 2012, and we reached
Audit Follow-up                       agreement with management on that
Agreed-upon actions were not          date. Management has implemented
completed within 1 year on five       two of the three recommendations
audit reports.                        made in the report.
Official Time for Union Activities,
OIG-AMR-62-10-01, was issued on
December 11, 2009, and we reached
agreement with management on that
date. During this reporting period,
management completed its final
action on the recommendations.
Purchase Cards, OIG-
AMR-65-11-03, was issued on
September 30, 2011, and we reached
agreement with management on

                                          NLRB Semiannual report         7
INVESTIGATIONS
PROGRAM
     The Inspector General is to provide policy direction for and is to conduct,
     supervise, and coordinate investigations relating to the programs and
     operations of the Agency. During this reporting period, we processed
     151 contacts, initiated 3 cases, closed 4 cases, and issued 4 investigative
     reports. Our investigative efforts resulted in two separations in lieu of
     disciplinary action, one reprimand, and one counseling. The investigations
     also resulted in the recovery of $18,765. Two matters were referred
     for prosecution.


                                              appropriate disciplinary action.
    Case Workload    Contacts Processed
                                              OIG-I-471
Open
(10/1/2013)
                9   Received            151   Investigated two allegations that
                                              were related to a pilot performance
                    Initiated
Initiated       3   Investigation
                                        2     management system and awards
                                              program. The matters involved in
                    Opened Case ­­­—          the investigation were addressed
Closed          4   Referred to         0
                    Agency                    through the issuance of an audit
                                              report. OIG-I-480 and OIG-I-485
Open                Non-Investigative
(3/31/2014)
                8   Disposition
                                        149   Investigated an allegation that a
                                              supervisor was leaving during the
                                              workday without requesting or being
Investigative Highlights                      charged leave. After our investigative
Investigated an allegation that               report was issued, the supervisor
an employee used the identity                 agreed to separate from the Agency
of another Agency employee to                 and forfeit $11,240 in annual leave.
launder proceeds from the criminal            OIG-I-492
activity of a family member. The
results of the investigation were             Investigated an allegation that a
provided to the Agency’s Security             manager of a subordinate employee
Branch. Management is considering             used Agency time and resources

8     NLRB Semiannual report
to engage in outside employment.        contacts. Hotline contacts are
While the investigation was pending,    analyzed to determine if further
the manager agreed to separate          inquiry or action is warranted.
from the Agency. After we issued an     During this reporting period, the
investigative report, the subordinate   OIG received 151 Hotline contacts,
employee was counseled. OIG-I-493       of which 62 were telephone calls or
Investigated an allegation that an      walk-ins and 89 were in writing.
employee was absent without             Most Hotline contacts are from
requesting or being charged leave.      members of the public seeking help
After we issued an investigative        on an employment-related problem
report, the employee agreed to          or issues outside OIG and/or
forfeit $7,525 in annual leave and      Agency jurisdiction. As appropriate,
was reprimanded. OIG-I-496              the OIG refers those Hotline
Hotline                                 contacts to a NLRB Regional
Employees and members of the            Office; local, state, or Federal
public with information on fraud,       agencies; or private resources
waste, and abuse are encouraged         to provide assistance.
to contact the OIG. A log of calls
to a nationwide toll-free number
or the office numbers and a log of
mail, e-mail, and facsimile messages
are maintained. All information
received, regardless of the method
used, is referred to as Hotline

                                            NLRB Semiannual report            9
LEGISLATION, REGULATIONS
AND POLICY
   The responsibilities and duties of an OIG include reviewing existing
   and proposed legislation and regulations relating to the programs and
   operations of its agency and making recommendations in the semiannual
   reports concerning the impact of such legislation or regulations on
   the economy and efficiency in the administration of programs and
   operations administered or financed by the agency or the prevention
   and detection of fraud and abuse in such programs and operations.



Legislation                             • H.R. 1815, Union Coercion
During the current Congress, 20          Prevention Act;
legislative proposals have been         • H.R. 2346, Secret Ballot
introduced that would amend the          Protection Act;
National Labor Relations Act or
                                        • H.R. 2347, Representation Fairness
otherwise impact the programs
                                         Restoration Act;
and operations of the Agency:
                                        • H.R. 2674, Job Creation Act of
• H.R. 557, Advice and Consent
                                         2013;
 Restoration Act;
                                        • H.R. 3485, Employee Rights Act;
• H.R. 795, Protecting American
 Jobs Act;                              • H.R. 4304, Jumpstarting
                                         Opportunities with Bold Solutions
• H.R. 976, To declare that certain
                                         Act;
 Agency actions have no force or
 effect and prohibits further action    • H.R. 4320, Workforce Democracy
 by the Board until the matters          and Fairness Act;
 involving the appointment of the       • H.R. 4321, Employee Privacy
 Board Members are resolved;             Protection Act;
• H.R. 1120, Preventing Greater         • H.R. 4379, To prohibit any
 Uncertainty in Labor-Management         appropriation of funds for the
 Relations Act;                          NLRB;

10 NLRB Semiannual report
• S. 180, NLRB Freeze Act of 2013;       • S. 2178, Workforce
                                          Democracy and Fairness Act.
• S. 188, Advice and Consent
 Restoration Act;                        Regulations
• S. 190, Restoring the Constitutional   The Counsel to the Inspector
 Balance of Power Act of 2013;           General is an advisory member
                                         of the Agency’s Rules Revision
• S. 850, Preventing Greater             Committee that develops
 Uncertainty in Labor-Management         changes to the Agency’s
 Relations Act;                          procedural regulations.
• S. 1166, Representation Fairness
 Restoration Act;
• S. 1712, Employee Rights Act; and




                                             NLRB Semiannual report 11
LIAISON
ACTIVITIES
   The Inspector General is to recommend policies for, and is to conduct,
   supervise, or coordinate relationships between the Agency and other
   Federal agencies, state and local governmental agencies, and non-
   governmental entities. The Inspector General is to give particular
   regard to the activities of the Comptroller General of the United
   States. Similarly, we encourage OIG staff members to participate in
   Agency programs and activities.


Inspector General                        in the Council of Counsels to
Community                                Inspectors General.
The Inspector General is a member        Government
of the Council of the Inspectors         Accountability Office
General on Integrity and Efficiency      The IG Act states that each
(CIGIE). This organization consists      Inspector General shall give
of Inspectors General at the Federal     particular regard to the activities
Government’s departments and             of the Comptroller General of
agencies. The Inspector General          the United States, as head of
sits as a member of the CIGIE            the Government Accountability
Audit Committee and the CIGIE            Office with a view toward avoiding
Information Technology Committee.        duplication and ensuring effective
The Inspector General is also the        coordination and cooperation.
CIGIE representative to the Chief
Financial Officers Council.
The Assistant Inspector General
for Audits, or designated auditors,
participated in the Federal Audit
Executive Council, Financial
Statement Audit Network, and the
Interagency Fraud and Risk Data
Mining Group. The Counsel to the
Inspector General participates

12 NLRB Semiannual report
INFORMATION
REQUIRED BY THE ACT
Certain information and statistics       (10) There are no audit reports
based on the activities accomplished     issued before the commencement
during this period are required by       of the reporting period for which
section 5(a) of the IG Act to be         no management decision has been
included in the semiannual reports.      made by the end of the reporting
These are set forth below:               period.
Section 5(a)                             (11) No significant revised
(1), (2), (7) OIG did not identify       management decisions were made
significant problems, abuses             during the reporting period.
or deficiencies relating to the          (12) There are no significant
administration of programs. For the      management decisions with which
purpose of this section, we used the     I am in disagreement.
definition of significant as set forth
                                         (13) There is no information to
in the Federal Managers’ Financial
                                         report under the requirements
Integrity Act.
                                         of section 05(b) of the Federal
(3) Except as noted on page 7,           Financial Management Improvement
corrective action has been completed     Act of 1996.
on all significant recommendations
                                         (14) (15) A peer review of the
that were described in the previous
                                         audit program was conducted
semiannual reports.
                                         by the National Credit Union
(4) Two cases were referred to           Administration OIG. The peer
prosecutorial authorities.               review report was issued on October
(5) No reports were made to the          31, 2011. A copy of the peer review
Board that information or assistance     report is at the appendix. There were
requested by the Inspector General       no recommendations. The OIG’s
was unreasonably refused or not          investigative program is not subject
provided.                                to the peer review requirement.
(6) A listing by subject matter is       (16) The OIG did not conduct a
located on page 14.                      peer review of any other entities
                                         during this reporting period.
(8), (9) One report was issued during
this period had questioned costs.
See Table 1.

                                             NLRB Semiannual report 13
audit REPORTS BY
SUBJECT MATTER
                                                                             Funds
Subject Matter                         Questioned      Unsupported
                                                                          To Be Put To
and Title                                Costs            Costs
                                                                           Better Use
General Administration
Division of Administration
Pilot Employee Recognition         $159,276.48             0                      0
Program
OIG-AMR-71-14-01
General Administration
NLRB Fiscal Year 2013
Financial Statements
                                           0               0                      0
OIG-F-18-14-01


Table 1. Reports With                                              Dollar Value
                                           Number of
Questioned Costs                            Reports      Questioned       Unsupported
                                                           Costs             Costs
A. For which no management
  decision has been made by the                0               0                  0
  commencement of the period
B. Which were issued during
   the reporting period
                                               1        $159,276.48               0
Subtotals (A+B)                                1        $159,276.48               0
C. For which a management decision
  was made during the reporting                1        $159,276.48               0
  period

(i) Dollar value of disallowed costs           0               0                  0
(ii) Dollar value of costs not
      disallowed
                                               1        $159,276.48               0
D. For which no management
  decision has been made by the                0               0                  0
  end of the reporting period

Reports for which no management
decision was made within six months            0               0                  0
of issuance



14 NLRB Semiannual report
Table 2. Reports with
Recommendations that                    Number of     Funds To Be Put
                                         Reports       To Better Use
Funds be Put to Better Use
A. For which no management
   decision has been made by the           0                0
   commencement of the period

B. Which were issued during the
   reporting period
                                           0                0

Subtotals (A+B)                            0                0
C. For which a management decision
   was made during the reporting           0                0
   period

(i) Dollar value of recommendations
    that were agreed to by management
                                           0                0

(ii) Dollar value of recommendations
     that were not agreed to by            0                0
     management

D. For which no management decision
   has been made by the end of the         0                0
   reporting period

Reports for which no management
decision was made within six months        0                0
of issuance




                                            NLRB Semiannual report 15
AP ENDix
                              National Credit Union Administration


                                        System Review Report
 Officeo lespecter Genend



      October 31, 2011

      To David Berry, Inspector General
      National Labor Relations Board


      We have reviewed the system of quality control for the audit organization of the National
      Labor Relations Board (NLRB) in effect for the year ended September 30, 2011. A
      system of quality control encompasses the NLRB OIG's organizational structure and the
      policies adopted and procedures established to provide it with reasonable assurance of
      conforming with Government Auditing Standards. The elements of quality control are
      described in Government Auditing Standanls. The NLRB OIG is responsible for
      designing a system of quality control and complying with it to provide the NLRB 010
      with reasonable assurance of performing and reporting in conformity with applicable
      professional standards in all material respects. Our responsibility is to express an
      opinion on the design of the system of quality control and the NLRB OIG's compliance
      therewith based on our review.

      Our review was conducted in accordance with Government Auditing Standards and
      guidelines established by the Council of the Inspectors General on Integrity and
      Efficiency (CIGIE). During our review, we interviewed NLRB OIG personnel and
      obtained an understanding of the nature of the NLRB OIG audit organization, and the
      design of the NLRB OIG's system of quality control sufficient to assess the risks implicit
      in its audit function. Based on our assessments, we selected engagements and
      administrative files to test for conformity with professional standards and compliance
      with the NLRB 010's system of quality control. The engagements selected represented
      a reasonable cross-section of the NLRB OIG's audit organization, with emphasis on
      higher-risk engagements. Prior to concluding the review, we reassessed the adequacy
      of the scope of the peer review procedures and met with NLRB 010 management to
      discuss the results of our review. We believe that the procedures we performed provide
      a reasonable basis for our opinion.

      In performing our review, we obtained an understanding of the system of quality control
      for the NLRB OIG's audit organization. In addition, we tested compliance with the
      NLRB OIG's quality control policies and procedures to the extent we considered
      appropriate. These tests covered the application of the NLRB 010's policies and
      procedures on selected engagements. Our review was based on selected tests;
      therefore, it would not necessarily detect all weaknesses in the system of quality control
      or all initances of noncompliance with it.




 1775 Duke Street • Alexandria, Virginin 22314-3428 • 703-518-6351) • 703-518-5349 FAX • aigniailOncua.gev




16 NLRB SEMIANNUAL REPORT 11111111111111111111110111=r1r11111111•11111111.11111
There are inherent limitations in the effectiveness of any system of quality control, and
therefore noncompliance with the system of quality control may occur and not be
detected. Projection of any evaluation of a system of quality control to future periods is
subject to the risk that the system of quality control may become inadequate because of
changes in conditions, or because the degree of compliance with the policies or
procedures may deteriorate.

Enclosure 1 to this report identifies the offices of the NLRB OIG that we visited and the
engagements that we reviewed.

In our opinion, the system of quality control for the audit organization of the NLRB (DIG
in effect for the year ended September 30, 2011, has been suitably designed and
complied with to provide the NLRB OIG with reasonable assurance of performing and
reporting in conformity with applicable professional standards in all material respects.
Federal audit organizations can receive a rating of pass, pass with deficiencies, or fait.
The NLRB (DIG has received a peer review rating of pass.

In addition to reviewing its system of quality control to ensure adherence with
Government Auditing Standards, we applied certain limited procedures in accordance
with guidance established by the CIGIE related to the NLRB OIG's monitoring of
engagements performed by Independent Public Accountants (IPA) under contract
where the IPA served as the principal auditor. It should be noted that monitoring of
engagements performed bylPAs is not an audit and therefore is not subject to the
requirements of Government Auditing Standards. The purpose of our limited
procedures was to determine whether the NLRB (DIG had controls to ensure 1PAs
performed contracted work in accordance with professional standards. However, our '
objective was not to express an opinion and accordingly, we do not express an opinion,
on the NLRB OIG's monitoring of work performed by IPAs.




                                       L4
                                   WilliamA. DeSamo
                                   Inspector General
                                   National Credit Union Administration

Enclosures




                                             2




                                                             NLRB SEMIANNUAL REPORT 17
                                                                   Enclosure 1


                           SCOPE AND METHODOLOGY

Scope and Methodology

We tested compliance with the NLRB OIG audit organization's system Of quality control
to the extent we considered appropriate. These tests included a review of two of two
audit reports issued during the period October 1, 2010, through September 30, 2011,
We also reviewed the internal quality control reviews performed-by NLRB 01G..

In addition, we reviewed the NLRB 01)'s monitoring of engagements performed by IPAs
where the IPA served as the principal auditor during the period October 1, 2010,
through September 30, 2011. During the period, the NLRB OIG contracted for the audit
of its agency's Fiscal Year 2010 financial statements.

We visited the Washington, DC office of the NLRB 010,


Reviewed Audit Engagements Performed by the NLRB OIG

Report NO,                Report Date         Report Title
01G-AMR-66                3/23/11-            Travel Cards
01G-AMR-64 '              4/7111              Case Processing Crisis


Reviewed Monitoring Files of the NLRB DIG for Contracted Engagements

Report No.                Report Date         Report Title
(AG-F-15                  12/15/10            Audit Report on the NLRB's Financial
                                              Statements for Fiscal Year 2010
 Office of Inspector General
National Labor Relations Board
 1099 14th Street, NW, Suite 9820
     Washington, DC 20570


         (202) 273-1960
         (800) 736-2983
    OIGHOTLINE@nlrb.gov
       Fax (202) 273-2344
1099 14th Street, N.W.
Washington, D.C. 20570
